DOE F 1325.8
(08-93)
United States Government                                                                De~artmentof Enerav


Memorandum
        DATE.    March 6, 2009                                 Audit Report Number: OAS-L-09-06
    REPLY TO
    A T ~ NOF    IG-30 (A08FN005)
     SUBJECT:    Audit Report on "Federal R4anagers1Financial Integrity P.ctf'

           TO:   Chief Financial Officer, CF- I

                 'The Federal Managers' Financial Integrity Act (FMFIA) of 1982 requires agency
                 heads to provide an annual assurance statement on whether internal control and
                 financial systems provide reasonable assurance that the integrity of Federal
                 programs and operations is protected. [n response. the Department of Energy
                 (Department) developed a program for evaluating the adequacy of its internal
                 controls and determining whether they conform to the principles and standards
                 established by the Office of Management and Budget and the Government
                 Accountability Office. The results of these evaluations and other information
                 provided by senior management are used to determine whether there are any
                  material weaknesses.

                 As a result of its evaluation of internal controls. the Department identified several
                 control problems and the related actions it is taking to mitigate them. Our most
                 recent Special Report: .L.funagement Challenges ut the Department qf Energy
                 (DOEIIG-0808, December 2008) incorporates most of the issues identified by the
                 Department and more fully describes our views on its most serious challenges and
                 efforts to address them. We conducted this review of selected aspects of the
                 Department's implementation of FbIFIA to determine whether its Fiscal Year
                 (FY) 2008 evaluation of internal controls was carried out in a reasonable and
                 prudent manner and adequately disclosed detected waste or other reportable
                 problems.

                 RESULTS OF AUDIT

                 Overall, the Department's FY 2008 FMFIA evaluation was carried out in a
                                      r generally disclnced kaown repnrta'ble prnhlems and actinn
                 reasnnah!e m z n ~ e and
                 pians. Consistent with our suggested action from last year. we noted that the
                 Naval Petroleum Reserve conducted its required financial management system
                 review. We also found that instructions issued by the Office of Chief Financial
                 Officer (OCFO) on behalf of the Departmental Internal Control and Audit Review
                 Council eliminated the requirement that Departmental elements submit action
                 plans for assigned Leadership Challenges with their FY 2008 FMFIA Assurance
                 Memoranda. Elimination of this requirement resolved the Leadership Challenge
                 issue we reported in recent years.
Our review. however, found that some Departmental elements continue to employ
practices hat do not fully comply with established policies and guidelines.
Specifically. over half the ~leilleilts- 23 01-39 - did 1101 sublilit their AAssurance
Memoranda in time to meet established deadlines. Additionally. kive
I-Ieadquarters elements and three field elements did not incorporate all disclosures
and statements required in Assurance Memoranda.

-2 number cf !hese omissions from the various .Issurance Memoranda were not
discovered by the existing quality assurance process. As part of the Department's
FMFIA evaluation, the OCFO conducted quality assurance reviews of FMFIA
ilssurance Memoranda to ensure that reporting requirements under the
Departmental directive were met. However, given the deticiencies we found and
our assessment of the OCFO quality assurance process. we determined that a more
complete and comprehensive review is necessary. '4 more robust quality
assurance process could help eliminate most of the problems noted above.

SUGGESTED ACTIONS

Current Department policies and guidelines clearly delineate management's
responsibilities for establishing and maintaining adequate internal control
programs. Where there is recurring nonconformance, additional direction may be
necessary to ensure con~pliancewith established requirements. Accordingly, we
suggest that the Office of Chief Financial Officer:

      1 . Work with heads of Department elements to emphasize the necessity for
          complying with the Department's internal control program requirements
          related to the accuracy. timeliness, and completeness of Assurance
          Memoranda; and.

      2. Enhance its quality assurance process to ensure that instances of
         nonconformance with Department's internal control program requirements
         are correcred in a timely manner.

No recommendations are being made in this report and a formal response is not
required. 'h'e appreciate the cooperation ofrhe Office of Chief Financiai Oi'iicer
during our review.




                                       -~ueputy
                                          i c k eR.
                                                 i Hass
                                                 inspector Generai
                                         for Audit Services
                                       Office of Inspector General


cc:      (Iffice of the Deputy Secretary
         Oftice of the Under Secretary of Energy
         Acting Director. Office of Science.
         :idministrator, National Nuclear Security Administration
         Cl~iefof Staff
                                                                                Attachment


SCOPE AND METHODOLOGY

 rhe Department's evaluation of its internal controls was zxamined for con~pliancewit11
the Federal Pvlanagers' Financial Integrity Act (FPvlFIA) of 1982, the Government
Accountability Office's "Standards for Internal Control in the Federal Government."
Office of blanagemznt and Budget Circular Nos A-123 and '4-127. and Department
!lrdcr 113.1'4. "Management Control Program. "The results of the Department's
<valuation of internal controls are inc!uded in the Department's FY 3008 Agency
Financial Report.

Our review was made in accordance with generally accepted Government auditing
standards and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy our objective. Accordingly, we assessed
internal controls regarding the FMFIA reporting process. Because our review was
limited. it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our zvaluation. We assessed the FY 2008 Agency Financial
Report as it relates to FMFIA. along with supporting documentation filed by selected
Departmental organizations, to determine whether the results of their evaluations were
accurately reported. Also. we performed work to determine whether the Department
developed corrective action plans for control weaknesses identified during its FY 3008
FMFIA reporting process. We did not rely on computer-processed data to accomplish
our audit objective. Wz discussed the results of our review with management, who
agreed with the issues we reported.
